GR-40-99-006
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Community Oriented Policing Services
Grant to the
City of East Point, Georgia, Police Department
Grant No. 95-CF-WX-0610
GR-40-99-006
 
December 1998
 
* * * * *
EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of the
grant awarded by the U.S. Department of Justice, Office of Community Oriented Policing
Services (COPS), to the City of East Point, Georgia, Police Department (grantee). The
grantee received a $192,303 grant to hire or rehire three additional sworn officers under
the Funding Accelerated for Smaller Towns (FAST) program. The grantee also received
$885,230 in supplements to the FAST grant to hire or rehire an additional 15 officers
under the Universal Hiring Program (UHP) program. The grantee was awarded an additional
$177,048 UHP supplement for three officers on August 14, 1998, but had not accepted the
award. The purpose of the grants for the additional officers is to enhance community
policing efforts.
In brief, our audit determined the grantee:


Claimed and was reimbursed $93,088 in salaries and fringe benefits for which no
    supporting documentation existed.


Claimed and was reimbursed $97,000 for the local share of salaries and fringe benefits
    that should have been paid with the grantee's matching funds. 


Claimed and was reimbursed $179,551 in salaries and fringe benefits for ineligible
    officers. 


Supplanted $98,752 in local funds with COPS funds under the FAST and UHP programs.


Submitted inaccurate monitoring reports to COPS and incorrectly reported total program
    outlays and the Federal share of outlays to the Office of Justice Programs. 

These items are discussed in the FINDINGS AND RECOMMENDATIONS section of the report.
Our audit scope and methodology appear in Appendix II.
#####